No. 21-270

 

 

IN THE

Supreme Court of the United States

BNSF RAILWwAy COMPANY,

Petitioner,
v.

ROBERT DANNELS,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of the State of Montana

BRIEF OF THE ASSOCIATION OF
AMERICAN RAILROADS
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,669 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2021.

 

Colin Casey Hogan
Wilson-Epes Printirtg Co., Inc.
